CERTIFICATE OF SERVICE
NO. 20-142
Michael Skidmore, as Trustee for the Randy Craig Wolfe Trust,
Petitioner,
v.
Led Zeppelin, et al.,
Respondents.
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
CALIFORNIA SOCIETY OF ENTERTAINMENT LAWYERS MOTION AND AMICUS AT PETITION STAGE IN
SUPPORT OF PETITIONER, by mailing three (3) true and correct copies of the same by USPS Priority
mail, postage prepaid for delivery to the following addresses:
Alfred Joseph Fluehr
Francis Alexander LLC
280 N. Providence Road
Suite 1
Meida, PA 19063
(215) 341-1063
aj@francisalexander.com
Counsel for Michael Skidmore

Peter J. Anderson
Davis Wright Tremaine LLP
865 S. Figueroa Street
24th Floor
Los Angeles, CA 90017-2566
(213) 633-6800
peteranderson@dwt.com
Counsel for James Patrick Page, Robert Anthony Plant,
John Paul Jones, Warner Chappell Music, Inc., Atlantic
Recording Corporation, Rhino Entertainment Company,
Super Hype Publishing, Inc., and Warner Music Group Corp.

Lucas DeDeus

September 10, 2020
SCP Tracking: Low-8383 Wilshire Blvd.-Cover Cream

